                                     SOCIAL SECURITY
MEMORANDUM

Date:   February 18, 2009                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Administration Employees Who Were Absent Without Leave
        (A-15-09-29076)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to determine (1) the number of Social Security Administration
        employees who were absent without leave from 2005 through 2007 and (2) whether the
        Agency possessed adequate management controls to recognize and respond to
        situations in which employees were absent without leave.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         S
                                                         Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION
Social Security Administration Employees
    Who Were Absent Without Leave
              A-15-09-29076




              February 2009
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                          Background
OBJECTIVE
We initiated this quick response evaluation on September 18, 2008 to determine (1) the
number of Social Security Administration (SSA) employees who were absent without
leave (AWOL) from 2005 through 2007 1 and (2) whether SSA possessed adequate
management controls to recognize and respond to situations in which employees were
AWOL.

BACKGROUND
On August 21, 2008, Senator Tom Coburn, M.D., released a report, Missing in Action,
AWOL in the Federal Government, that documented employees at 18 Federal
departments and agencies being AWOL at least 19.6 million hours from 2001 through
2007. Senator Coburn’s report noted that Federal agencies did not have a common
definition of AWOL. SSA’s use of AWOL was not referenced in the report.

The Office of Personnel Management (OPM) does not maintain a unified Federal
Personnel Manual. 2 Instead, Federal agencies are responsible for the development
and implementation of personnel policies and procedures. Accordingly, SSA’s Time
and Attendance Policy and Procedure Guide defines AWOL as unpaid leave charged to
an employee when an employee

   is absent without permission or approval;
   has not notified the supervisor of the absence; or
   has not provided a satisfactory explanation or documentation for the absence from
    duty. 3

Based on SSA’s Office of Personnel guidance, a charge of AWOL is not an adverse
personnel action but a nonpay leave status. However, repeated incidences of AWOL
can be grounds for disciplinary action. AWOL is different from leave without pay
(LWOP), which is unpaid leave that is approved by the supervisor. AWOL can be
charged in increments as small as one-quarter hour. The decision to charge an
employee AWOL resides with an employee’s first-line supervisor or team leader. The


1
 This timeframe allowed us to analyze the most current and relevant information to relate instances of
AWOL to particular employees and seek information from managers.
2
 Miscellaneous Changes in Office of Personnel Management’s Regulations, 66 Federal Register 66709,
December 27, 2001.

3
 Time and Attendance Policy and Procedure Guide, Chapter 8, Unpaid Leave. Last Updated: June 03,
2008.


Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)                   1
amounts of AWOL charged to individuals during the leave years 2005 through 2007
ranged from a low of one-quarter hour to a high of 2,072 hours in a leave year.

The information used in this evaluation was obtained from the Federal Personnel and
Pay System (FPPS). SSA uses FPPS to process all pay and personnel-related actions.
For the purpose of this review, those AWOL hours converted to another leave category
(that is, LWOP or sick leave) within the same leave year were excluded. If a correction
to the employee’s leave record (that is, changing AWOL to LWOP) was processed in
another leave year, the leave status remains AWOL for the leave year it was charged.
Below are two examples to demonstrate the posting of AWOL time.

     Employee A neither reports to work for 4 days nor calls in. Following Agency
      guidelines, Employee A’s manager places Employee A on AWOL. However, on the
      fifth day, the employee calls in, indicating he was in an accident and hospitalized.
      Employee A requests sick leave and provides acceptable medical documentation.
      The manager amends Employee A’s time out of the office from AWOL to sick leave
      in the same leave year. For the purposes of this review, Employee A’s time would
      not be categorized as AWOL.

     Because of a car accident, Employee B is out of the office during the last week of
      December 2007 and the first week of January 2008. During the absence, Employee
      B fails to request leave, and her time is charged as AWOL. When Employee B
      returns to the office in January 2008, she provides acceptable medical
      documentation, and her time out of the office is converted to sick leave. Since the
      change to Employee B’s leave was processed at the beginning of a new leave year,
      her absence remains characterized as AWOL in the prior leave year. For the
      purposes of this review, Employee B’s leave would be categorized as AWOL.

SSA provides guidance for the application of AWOL in its Personnel Policy Manual
(PPM). The Center for Human Resources (CHR) in each region also provides guidance
to managers and supervisors in the application of AWOL. Based on policy, the final
application of AWOL and any resulting disciplinary actions that follow are left to the
discretion of an employee’s supervisor or team leader. The advice provided by CHR is
unique to the facts of an employee’s situation.

To ensure fairness, managers are instructed to uniformly apply the rules regarding
leave in their office. Because managers have discretion in the application of time and
leave (for example, whether to grant LWOP or convert AWOL to sick or annual leave),
application of AWOL may differ within and between offices. 4 Below are examples of the
differences in application.




4
    SSA PPM, S630-1 Management of Leave, Delegation of Authority.


Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)       2
   An employee caring for a sick/disabled spouse was repeatedly late and failed to call
    in to the office. The employee was charged with AWOL from the start of core hours
    until employee came to work. When the employee called in as required, the time
    was charged to LWOP.

   An employee was placed on leave restriction when, in a month, he or she took leave
    on 10 of 19 workdays (without requesting the leave in advance). On multiple
    occasions, the employee failed to comply with the requirements of the leave
    restriction (that is, the employee failed to provide acceptable medical documentation,
    call in to the office and request leave in advance). The employee was reprimanded.
    Despite the reprimand, the employee continued to take leave without following the
    leave guidelines. The manager issued a proposal to remove which was held in
    abeyance, and ultimately withdrawn, when the employee was approved for disability
    benefits.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)     3
                                                           Results of Review
We determined that on average 1,450 (approximately 2 percent) of 71,000 5 SSA
employees had instances of AWOL each year from 2005 to 2007. Additionally, we
determined SSA possessed adequate management controls to recognize and respond
to situations in which employees were AWOL.
Incidences of AWOL in SSA
Senator Coburn’s report studied AWOL charges in Federal agencies representing a
wide range of employees. Chart 1 demonstrates SSA’s use of AWOL compared to
other Federal agencies with similar numbers of employees. Although SSA’s AWOL
hours are highest among other comparably sized agencies studied in the Coburn report,
the total number of AWOL hours in comparison to the total hours worked by SSA
employees for each year reviewed was less than one-tenth of one percent (see Chart
2). Additionally, for the entire time period reviewed (that is, 2005 through 2007),
approximately 2 percent of SSA employees had instances of AWOL (see Chart 2).

                Chart 1 – SSA AWOL Hours Compared to Other Federal Agencies
                                     2005                      2006                      2007
                                            AWOL                       AWOL                     AWOL
                            Employees       Hours      Employees       Hours     Employees      Hours
    SSA                         73,709      117,753        70,726      116,324       69,324     101,823
    Department of the           73,599       62,626        72,274       73,140       71,657      65,832
    Interior
    Department of                55,975       22,625        53,865       35,146          54,221   32,195
    Transportation
    Department of Health         60,944       67,365        61,163       65,381          62,502   60,761
    & Human Services
    Note: Federal agencies lack a unified definition of AWOL. As a result, the report acknowledged that
    the data should not be viewed as comprehensive since the methodology for compiling and reporting
    AWOL information among Federal agencies is unclear.

                          Chart 2 – SSA Employees AWOL 2005- 2007
                                         Leave Year      Leave Year       Leave Year          Total
                                            2005            2006             2007           2005-2007
    Total Number of Employees 6            73,709          70,726           69,324           213,759
    Employees Charged with AWOL             1,364          1,575             1,416            4,355
    Employees AWOL                         1.85%           2.23%            2.04%             2.04%

    Hours Worked                         134,617,193     131,670,913      132,587,102      398,875,208
    Hours of AWOL                          117,753         116,324          101,823         335,9000
    AWOL Hours                              .087%           .088%            .077%           .084%



5
 The totals used to calculate the average represent all employees including all temporary appointments,
such as students.
6
    Ibid.


Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)                    4
Overall, there were 3,110 distinct SSA employees who had at least 1 instance of AWOL
during the period of our review. There were 275 individual employees who had at least
1 instance of AWOL in every year we studied. For information on employees with
AWOL hours by component, refer to Appendix C.

Response to AWOL Surveys

As part of our review, we analyzed information gathered from FPPS and contacted
66 managers of 72 employees who had accrued AWOL hours. Additionally, we
surveyed CHR staff from Headquarters, the Office of Central Operations and all
10 Regions. 7 Our review looked at the actions managers took once an employee was
identified as being AWOL. We focused on those individuals with the highest number of
AWOL hours from 2005 through 2007. We sought information concerning the
employees’ AWOL and whether the manager’s actions agreed with SSA’s PPM.

Manager Responses

We contacted 66 managers, supervising 72 employees, for this review. Six managers
had more than one employee who were identified for this review. Five managers
responded the employee had left SSA, and the former manager who charged the
employee with AWOL was unavailable to provide the requested information. There
were also two managers who did not respond to the information requests. In total, we
received 59 management responses representing 65 employees. Based on feedback
from those managers who responded, the following were the underlying reasons they
charged individuals with AWOL.

     Failure to Follow Leave Guidelines. Forty-six of the 65 employees reviewed were in
      this group. These employees failed to follow leave guidelines when they did not
      request leave, were absent from their duty station without permission, or failed to
      provide acceptable documentation to support an absence. For example, an
      employee was AWOL on 162 separate occasions, accumulating over 1,296 hours of
      AWOL in 1 leave year. The employee’s manager entered into a “last chance”
      agreement 8 with the employee in which the employee agreed to follow the Agency’s
      policy regarding requesting and taking leave. The employee failed to follow the
      policy for requesting leave and was terminated for violating the “last chance”
      agreement.




7
    One Regional CHR did not respond.
8
 2005 National Agreement between SSA and the American Federation of Government Employees Union,
Article 3, Section 6H.


Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)       5
     Illness. Thirteen of the 65 employees reviewed were in this group. These
      employees reported suffering from a serious illness or injury that precluded their
      return to the office. As a result, the employees spent a protracted amount of time
      out of the office (often exhausting their accumulated leave, advanced leave, the
      LWOP granted by the Family and Medical Leave Act of 1993, 9 and leave donated
      under the Voluntary Leave Transfer Program 10 ). If the leave-approving official does
      not approve additional LWOP, the employee may be placed on AWOL. For
      example, an employee became ill and exhausted all leave and LWOP. She failed to
      follow appropriate leave procedures and did not provide sufficient medical
      documentation; therefore, she was placed on AWOL. She accumulated 2,072 hours
      of AWOL (in a single leave year) while going through OPM’s disability process. 11
      The employee received retirement disability.

     Job Abandonment. Six of the 65 employees reviewed were in this group. Job
      abandonment occurs when employees in a non-leave status fail to return to work, do
      not notify the supervisor regarding the absence, or do not provide an acceptable
      reason for the absence and an expected date of return to duty. For example, in
      December 2004, an employee with 32 years’ service was placed on AWOL when he
      or she failed to report to work or request leave. Attempts to contact the employee
      were unsuccessful. The employee was suspended in February 2006 for continuous
      AWOL since January 2005. The employee returned to work from March through
      June 2006. The employee continued to accrue AWOL hours and was reprimanded,
      suspended and ultimately terminated.

SSA’s PPM 12 provides guidance for managers on identifying situations in which a leave
problem exists, how and when to counsel employees to address leave issues, and
when corrective action should be taken. Of the 63 managers who responded to this
report, 97 percent counseled their employees on leave usage, and 57 percent took
some form of corrective action (ranging from a reprimand to dismissal).




9
    Pub. L. No. 103-3.
10
     PPM S630-11, Voluntary Transfer Leave Program.
11
   To be granted disability retirement under one of the Federal retirement systems, you must be unable to
do your job and must not turn down a suitable vacancy within your agency that is within your commuting
area and at the same grade or pay level as your current position. The disability must be expected to last
at least 1 year.

12
     PPM S630-14, Attendance and Leave Problems.


Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)                  6
CHR Responses

Although the PPM provides centralized guidance for all attendance and leave issues,
the application of the policy is decentralized. Each region’s CHR works directly with
offices and components within its region to offer guidance and support for applying the
personnel policies. Based on input from the CHRs, we determined the following.

   AWOL is defined similarly by the CHR’s in representing each region or component.
   All regions provide training to new managers regarding AWOL. Six regions/
    components provide ongoing or periodic training to experienced managers regarding
    AWOL while all regions/components state they make themselves available to
    experienced managers as needed.
   There is no standard approach to addressing AWOL issues. The CHRs seek to
    provide advice and guidance that is unique to a particular employee’s situation.
   At least two of the CHRs developed unique tools to assist managers with the
    identification of leave problems. These tools, while helpful, are limited to the
    managers in the CHRs’ Region or component.

Overall, SSA’s PPM provides the framework for managers when dealing with
employees who were AWOL. The managers are trained regarding leave policy in
relation to AWOL, and the CHR staff is available to assist managers when responding
to AWOL issues. Although the underlying reasons for charging employees with AWOL
are different and unique to the individual circumstances, we believe SSA has adequate
management controls in place to recognize and respond appropriately.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)    7
                                  Matters for Consideration
Based on (1) the survey responses from those managers whose employees were
AWOL, (2) responses from the CHRs, and (3) the number of hours of AWOL in
comparison to the total hours worked by SSA employees, we believe SSA possesses
adequate management controls to recognize and respond to situations in which
employees are AWOL. To ensure SSA managers consistently address leave issues
Agencywide, we believe SSA should consider

   centralizing and making available to all managers all guidance on identifying and
    correcting leave problems,
   periodically collecting and analyzing AWOL data to determine employee trends
    regarding the use of AWOL,
   providing employees an annual reminder related to the proper use of leave, and
   providing training to employees on AWOL and LWOP and the implications of these
    non-pay statuses.

To ensure Agency-wide consistency in the application of leave policies, SSA should
continue to emphasize training to managers on the proper identification and handling of
leave problems.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)   8
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Absent Without Leave by Social Security Administration Component
             from 2005 Through 2007
APPENDIX D – OIG Contacts and Staff Acknowledgments




Social Security Administration Employees Who Are Absent Without Leave (A15-09-29076)
                                                                        Appendix A

Acronyms

    AWOL               Absent Without Leave

    CHR                Center for Human Resources

    FPPS               Federal Personnel and Pay System

    LWOP               Leave Without Pay

    OPM                Office of Personnel Management

    PPM                Personnel Policy Manual

    Pub. L. No.        Public Law Number

    SSA                Social Security Administration




Social Security Administration Employees Who Are Absent Without Leave (A-15-09-29076)
                                                                        Appendix B

Scope and Methodology
We reviewed applicable sections of the Social Security Administration’s (SSA) policies
and procedures including the most current union agreements. We analyzed employee
data provided by SSA for all employees who were AWOL from 2005 through 2007. We
then focused on the 72 employees with the greatest AWOL use seeking information
from the employees’ managers to explain how the AWOL was handled. Additionally, we
surveyed the Regional Centers for Human Resources to determine the manner and
scope of advice provided to managers whose employees were AWOL.

We analyzed the data related to instances of AWOL by SSA employees for 2005
through 2007 to determine the following.

   The aggregate number of SSA employees who were AWOL during the period.
   The number of SSA employees who had an instance of AWOL in each of the
    3 years.
   The number of SSA employees who were AWOL in 2 of the 3 years.
   The 10 individuals with the highest number of AWOL hours in each of the 3 years.
Additionally, we:
   Divided employees with instances of AWOL in all 3 years, into two groups based on
    whether management initiated a personnel action against the employee. Then, we
    identified up to six employees from each Region/component who were AWOL in
    each of the 3 years and had the highest aggregate number of AWOL hours (three
    employees who had a personnel action initiated and three employees who did not
    have a personnel action initiated). We sought information from these employees’
    managers to determine the basis for their actions (or inactions) and whether these
    actions agreed with SSA’s policies and procedures.
   Determined the five employees in 2005 and 2006 with the highest number of AWOL
    hours. We sought information from these employees’ managers to ascertain the
    basis for their actions (or inactions) and whether they agreed with SSA’s policies and
    procedures.
   Determined the 10 employees with the highest number of AWOL hours in 2007. We
    sought information from these employees’ managers to ascertain whether
    management took a personnel action and whether management’s actions (or
    inactions) agreed with SSA’s policies and procedures.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)   B-1
We performed our review from September through December 2008 in Baltimore,
Maryland. We used data retrieved by SSA from the Federal Personnel and Pay System
(FPPS). The data retrieved from FPPS included information on the Office of Inspector
General. We did not independently test the reliability of the data used for analysis.
However, based on the feedback from the management survey responses, we
determined the data used for this evaluation were sufficiently reliable to meet our
objectives. We conducted our review in accordance with the President’s Council on
Integrity and Efficiency’s Quality Standards for Inspections.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)   B-2
                                                                                                                 Appendix C

Absent Without Leave by Social Security Administration
Component from 2005 Through 2007
                                      2005                 2005             2006            2006          2007        2007
                                    Employees             Hours           Employees        Hours        EmployeesA   Hours
                                     AWOL                 AWOL             AWOL            AWOL           WOL        AWOL
    Chief Information Office                                                           1           40            1           163
    Chief Strategic Officer                                                            1           23
    Budget Finance and
    Management                                  29             3,061                  19       1,519            21       3,289
    Communications                               4               116                   4         190             1           9
    Disability Adjudication and
    Review                                                                        134         16,499           116      13,362
    Disability Income Security
    Programs                                  117             13,790                7          1,852             4       2,141
    Human Resources                             2                 18                3            248             2          43
    Operations                              1,184             98,204            1,369         92,318         1,242      74,992
    Policy
    Quality Performance                                                                3       1,626             6       3,898
    Systems                                     18             2,349                  22       1,903            12       2,931
    Office of the Chief Actuary
    Office of General Counsel                    5                   51                9           82            9            60
    Office of the Inspector
    General                                     5                165                3             25             2         936
    Total                                   1,364            117,753            1,575       116,324 1        1,416    101,823 2


1
    Total count for hours of AWOL is greater by 1 due to rounding.
2
    Ibid.



Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

       James Julian, SES Candidate Development Program Participant

Acknowledgments
In addition to those named above:

       Chasity Crawley, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-29076.




Social Security Administration Employees Who Were Absent Without Leave (A-15-09-29076)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
